No. ______
In the

Supreme Court of the United States
__________________
H&M HENNES & MAURITZ, LP,
a New York limited partnership,
Petitioner,
v.
MALIBU TEXTILES, INC., a New York corporation,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
STACI JENNIFER RIORDAN
Counsel of Record
NEAL J. GAUGER
NIXON PEABODY LLP
300 South Grand Avenue, 41st Floor
Los Angeles, California, 90071
(213) 629-6000
sriordan@nixonpeabody.com
Counsel for Petitioner
August 29, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. In light of the “plausibility” standard established by
this Court in Bell Atlantic Corp. v. Twombly, 550
U.S. 544 (2007) and Ashcroft v. Iqbal, 556 U.S. 662
(2009), where a plaintiff has not made any factual
allegations regarding access, are conclusory
statements that “striking similarity” exists between
two works insufficient to plead a claim of copyright
infringement, or do such allegations meet the
pleading standard, as the Ninth Circuit held in this
case?
2. Even if a pleading of striking similarity is
permissible absent any pleading of access, are
plaintiffs required to plead reliable evidence of
copyright ownership and evidence as to what work
is allegedly protected by that copyright (including
official copies of the works’ copyright registrations
and copies of the deposit materials submitted to the
Copyright Office) in light of Fourth Estate Pub.
Benefit Corp. v. Wall-Street.com, LLC (“Fourth
Estate”), 139 S. Ct. 881 (2019), or are such materials
not required to meet the pleading standard, as the
Ninth Circuit held in this case?
3. On a motion to dismiss, are a defendant’s copyrights
prima facie evidence of the copyrights’ validity, the
ownership of the work, and the work’s independent
creation, and thus sufficient to bar a pleading of
striking similarity, or is consideration of such
materials inappropriate before summary judgment
or trial, as the Ninth Circuit held in this case?

ii
PARTIES TO THE PROCEEDING
Petitioner H&M Hennes & Mauritz LP, who was
respondent before the United States Court of Appeals
for the Ninth Circuit, and defendant before the district
court, is a New York limited partnership, and is not
publicly held.
On information and belief, Respondent Malibu
Textiles, Inc., who was petitioner before the United
States Court of Appeals for the Ninth Circuit, and
plaintiff before the district court, is a New York
corporation and is not publicly held.

iii
RELATED PROCEEDINGS
There are no proceedings that are directly related to
this case.

iv
RULE 29.6 STATEMENT
H & M Hennes & Mauritz LP, a privately held
company, has no corporate parent, and no publicly held
company has an ownership interest of more than ten
percent.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . iii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 1
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. Background and Summary . . . . . . . . . . . . 2
B. Procedural History and Prior Court
Orders . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
REASONS FOR GRANTING THE PETITION . . . 16
I.

A PLEADING OF STRIKING SIMILARITY
SHOULD NOT BE PERMITTED ABSENT A
PLEADING OF ACCESS . . . . . . . . . . . . . . . 16

II.

INFRINGEMENT CLAIMS SHOULD
REQUIRE FILING OF REGISTRATION
CERTIFICATES AND DEPOSIT
MATERIALS AT TIME OF PLEADING . . . 29

vi
III.

DISTRICT COURTS SHOULD BE
AUTHORIZED
TO
WEIGH
A
DEFENDANT’S COPYRIGHTS ON A
MOTION TO DISMISS . . . . . . . . . . . . . . . . . 32

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(April 24, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Order Granting Defendant H&M
Hennes & Mauritz L.P.’s Motion to
Dismiss in the United States District
Court Central District of California
(June 3, 2014) . . . . . . . . . . . . . . . App. 18
Appendix C Order Granting Defendant’s Motion to
Dismiss Plaintiff’s First Amended
Complaint in the United States
District Court Central District of
California
(June 29, 2017) . . . . . . . . . . . . . . App. 22
Appendix D Order Denying Defendant H&M
Hennes & Mauritz L.P.’s Motion for
Attorney’s Fees and Denying Plaintiff
Malibu Textiles, Inc.’s Motion for
Reconsideration in the United States
District Court Central District of
California
(July 22, 2014). . . . . . . . . . . . . . . App. 28

vii
Appendix E Memorandum in the United States
Court of Appeals for the Ninth Circuit
(September 13, 2016) . . . . . . . . . App. 33
Appendix F Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Ninth Circuit
(May 31, 2019). . . . . . . . . . . . . . . App. 37
Appendix G Statutory Provisions Involved . . App. 39

viii
TABLE OF AUTHORITIES
CASES
All About Network, LLC v. York,
No. 612CV1374ORL37KRS, 2013 WL 12387590
(M.D. Fla. June 14, 2013), . . . . . . . . . . . . . . . . . 18
Arthur Rutenberg Homes, Inc. v. Berger,
910 F. Supp. 603 (M.D. Fla. 1995) . . . . . . . . . . . 25
Ashcroft v. Iqbal,
556 U.S. 662 (2009). . . . . . . . . . . . . . . . . 2, 4, 6, 21
Batiste v. Lewis,
No. CV 17-4435, 2018 WL 2268173
(E.D. La. May 17, 2018) . . . . . . . . . . . . . . . passim
Baxter v. MCA, Inc.,
812 F.2d 421 (9th Cir. 1987). . . . . . . . . . . . . . . . 17
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007). . . . . . . . . . . . . . . 2, 4, 5, 6, 21
Berkic v. Crichton,
761 F. 3d (9th Cir. 1985). . . . . . . . . . . . . . . 3, 8, 13
Bouchat v. Baltimore Ravens, Inc.,
241 F.3d 350 (4th Cir. 2001). . . . . . . . . . . 5, 17, 26
Corwin v. Walt Disney Co.,
475 F.3d 1239 (11th Cir. 2007). . . . . . . . . . . . . . 33
Creative Tech., Ltd. v. Aztech Sys. Pte., Ltd.,
61 F.3d 696 (9th Cir. 1995). . . . . . . . . . . . . . . . . 35

ix
CYBERsitter, LLC v. People’s Republic of China,
No. CV 10-38-JST SHX, 2010 WL 4909958
(C.D. Cal. Nov. 18, 2010). . . . . . . . . . . . . . . . . . 35
Election Sys. & Software, LLC v. RBM Consulting,
LLC, No. 8:11-CV-438, 2015 WL 13484484
(D. Neb. Feb. 4, 2015) . . . . . . . . . . . . . . . . . . . . 30
Feist Publ’ns, Inc. v. Rural Tel. Serv. Co., Inc.,
499 U.S. 340 (1991). . . . . . . . . . . . . . . . . . . . . . . 34
Ferguson v. National Broadcasting Co.,
584 F.2d 111 (5th Cir.1978) . . . . . . . . . . . . . . . . 25
Fourth Estate Pub. Benefit Corp. v.
Wall-Street.com, LLC,
139 S. Ct. 881 (2019). . . . . . . . . . . . . . . . . . passim
Gaste v. Kaiserman,
863 F.2d 1061 (2d Cir. 1988) . . . . . 5, 6, 26, 28, 33
Golan v. Holder,
565 U.S. 302, 132 S. Ct. 873 (2012) . . . . . . . . . . 35
Gordon v. DreamWorks Animation SKG, Inc.,
935 F. Supp. 2d 306 (D. Mass. 2013) . . . . . . . . . 34
Heim v. Universal Pictures Co.,
154 F.2d 480 (2d Cir. 1946) . . . . . . . . . . . . . . . . 17
Johnson v. Gordon,
409 F.3d 12 (1st Cir. 2005) . . . . . . . . . . . . . . . . . 34
Jorgensen v. Epic/Sony Records,
351 F.3d 46 (2d Cir. 2003) . . . . . . . . . . . . . . . . . 15
Kenbrooke Fabrics, Inc. v. Holland Fabrics, Inc.,
602 F. Supp. 151 (S.D. N.Y. 1984) . . . . . . . . . . . 34

x
McKain v. Estate of Rhymer,
166 F. Supp. 3d (D. Conn. 2015) . . . . . . . . . . . . 15
Original Appalachian Artworks, Inc. v. Toy
Loft, Inc., 684 F.2d 821 (11th Cir. 1982) . . . . . . 29
Rogers v. Koons,
960 F.2d 301 (2d Cir.1992) . . . . . . . . . . . . . . . . . 29
Seals-McClellan v. Dreamworks, Inc.,
120 Fed. Appx. 3 (9th Cir. 2004) . . . . . . . . . 28, 33
Selle v. Gibb,
741 F.2d 896 (7th Cir. 1984). . . . . . . . . . . 6, 17, 27
Stewart v. Wachowski,
574 F. Supp. 2d 1074 (C.D. Cal. 2005) . . . . . . 6, 27
Stratchborneo v. Arc Music Corp.,
357 F Supp. 1393 (S.D. N.Y 1973) . . . . . . . . 28, 33
Takeall v. Pepsico, Inc.,
809 F. Supp. 19 (D.Md. 1992). . . . . . . . . . . . . 6, 26
Takeall v. Pepsico, Inc.,
14 F.3d 596 (4th Cir. 1993). . . . . . . . . . . . . . . 5, 26
Testa v. Janssen,
492 F. Supp. 198 (W.D. Pa. 1980) . . . . . 17, 28, 33
Three Boys Music Corp. v. Bolton.
212 F.3d 477 (9th Cir. 2000). . . . . . . . . . . . . . . . 18
Thunder Studios, Inc. v. Kazal,
No. 217CV00871ABSSX, 2018 WL 5099726
(C.D. Cal. Mar. 22, 2018) . . . . . . . . . . . . . . passim

xi
Wilkie v. Santly Bros.,
91 F.2d 978 (2d Cir. 1937) . . . . . . . . . . . . . . . . . 16
Yurman Design, Inc. v. PAJ, Inc.,
262 F.3d 101 (2d Cir. 2001) . . . . . . . . . . . . . . . . 34
STATUTES
17 U.S.C. § 102 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
17 U.S.C. § 103 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
17 U.S.C. § 104 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
17 U.S.C. § 410(c) . . . . . . . . . . . . . . . . . . 29, 30, 31, 33
17 U.S.C. § 501 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Fed. R. Civ. P. 8(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . 18, 34, 36
OTHER AUTHORITY
TRIPS Agreement, Art. 3(1), available at
https://www.wto.org/english/docs_e/legal_e/27trips.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

1
PETITION FOR WRIT OF CERTIORARI
_______________
Petitioner H & M Hennes & Mauritz LP (“H&M”)
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Ninth Circuit.
OPINIONS BELOW
The Ninth Circuit’s opinion addressing the
questions presented (App. 1) is reported at 922 F.3d
946. The district court’s opinions granting H&M’s 2014
and 2017 motions to dismiss (App. 18, 22), and denying
Respondent Malibu Textiles, Inc.’s 2014 motion for
reconsideration (App. 28) are unreported. The Ninth
Circuit’s 2016 opinion affirming the grant of H&M’s
2014 motion to dismiss (App. 33) is unreported. The
Ninth Circuit’s opinion denying H&M’s 2019 petition
for rehearing en banc (App. 37) is unreported.
JURISDICTION
The Ninth Circuit entered judgment on April 24,
2019. App. 1. On May 31, 2019, the Ninth Circuit
denied H&M’s request for rehearing en banc. App. 37.
This Court has jurisdiction under 28 U.S.C. § 1254.
STATUTORY PROVISIONS INVOLVED
Relevant provisions of the Copyright Act include 17
U.S.C. § 102, 17 U.S.C. § 103, 17 U.S.C. § 501, and 17
U.S.C. § 104. App. 39-45.

2
STATEMENT
A. Background and Summary
In a pair of epoch-defining cases, Bell Atlantic Corp.
v. Twombly, 550 U.S. 544 (2007) and Ashcroft v. Iqbal,
556 U.S. 662 (2009), this Court took bold, decisive and
critical action to reel in litigants and circuit courts who
had stretched the limits of Federal Rule of Civil
Procedure 8(a)(2) beyond recognition and rationality.
Iqbal and Twombly are unwavering, requiring that all
plaintiffs must file complaints consisting of wellpleaded factual allegations, which, when accepted as
true, “state a claim to relief that is plausible on its
face.” Twombly, 550 U.S. at 570. Iqbal and Twombly
further affirmed that courts “are not bound to accept as
true a legal conclusion couched as a factual allegation,”
and that “[w]hile legal conclusions can provide the
framework of a complaint, they must be supported by
factual allegations.” Id. at 550 U.S. 555; Iqbal, 556
U.S. at 679.
The time has come to instruct the circuit courts once
more. Earlier this year, the United States Court of
Appeals for the Ninth Circuit (“Ninth Circuit”) used the
instant case to dramatically expand the scope of
acceptable copyright infringement pleading beyond the
well-settled requirements of this Court’s precedent and
circuit court law. Without precedent in circuit court
jurisprudence, the Ninth Circuit has held that a
complaint containing speculative, conclusory
allegations of striking similarity – accompanied only by
speculative, conclusory allegations as to access – is
sufficient to plead a claim for copyright infringement.
Notably, the Ninth Circuit’s 2019 decision is even

3
inconsistent with its 2016 orders previously issued in
this litigation, when it instructed Respondent Malibu
Textiles, Inc. (“Malibu”) to plead fact-based,
substantive, and plausible access allegations. App. 3536.
It is sacrosanct that, at the start of litigation, a
plaintiff must plead facts — not mere legal conclusions
— establishing: (1) the plaintiff’s ownership of a
copyright registration for its work; (2) the defendant’s
access to the copyrighted work; and (3) substantial
similarity between the copyrighted work and the
allegedly infringing material. Berkic v. Crichton, 761
F. 3d 1289, 1291-92 (9th Cir. 1985). Where a claim has
merit, each of these elements should be pled without
difficulty – including access. As noted by the Ninth
Circuit when this case first rose on appeal in 2016,
evidence supporting access through widespread
dissemination is, by its very nature, known to the
plaintiff at the start of litigation; such facts can be
derived from a plaintiff’s own sales records. App. 36.
But now, the Ninth Circuit believes that even this is
too great a burden for copyright plaintiffs to bear. If
this new standard remains, the courts of the Ninth
Circuit (and undoubtedly others) will be flooded with
complaints based only on insufficient, self-serving, and
conclusory striking similarity allegations such as those
offered by Malibu here.
The loophole is broad; the Ninth Circuit’s new test
essentially allows plaintiffs to ignore the access
requirement entirely, stating only unsupported
allegations of copyright ownership and striking
similarity to survive the pleading bar. Then, absent

4
adjudication at summary judgment (disfavored in
copyright infringement cases), defendants will be
obligated to litigate through trial or to pay a
settlement, regardless of merit. This is deeply unfair,
and far from the equal footing that should be enjoyed
by plaintiffs and defendants alike in the litigation
process.
The practice of girding an insufficient complaint in
order to launch a discovery fishing expedition is the
exact act warned against by Iqbal and Twombly’s
central holding – that a plaintiff may not “unlock the
doors of discovery . . . armed with nothing more than
conclusions.” Iqbal, 556 U.S. at 678-79 (2009). In
Twombly, this Court recognized that a lowered
pleading bar would unfairly burden defendants with
substantial and unnecessary discovery costs, and that
the resulting abuse of discovery by the plaintiff’s bar
would likely not be controlled:
It is no answer to say that a claim just shy of a
plausible entitlement to relief can, if groundless,
be weeded out early in the discovery process
through careful case management, given the
common lament that the success of judicial
supervision in checking discovery abuse has
been on the modest side . . . And it is self-evident
that the problem of discovery abuse cannot be
solved by careful scrutiny of evidence at the
summary judgment stage, much less lucid
instructions to juries; the threat of discovery
expense will push cost-conscious defendants to

5
settle even anemic cases before reaching those
proceedings.
Twombly, 550 U.S. at 559 (citations and quotations
omitted).
This is not an abstract concern, as district courts
already provide examples where pleadings that allege
striking similarity without access have been defeated
at summary judgment and trial – but not until after
the defendants in those cases were made to needlessly
expend hundreds of thousands of dollars demonstrating
the futility of the plaintiffs’ claims. Batiste v. Lewis,
No. CV 17-4435, 2018 WL 2268173 (E.D. La. May 17,
2018) (finding no infringement at summary judgment);
Thunder Studios, Inc. v. Kazal, No.
217CV00871ABSSX, 2018 WL 5099726 (C.D. Cal. Mar.
22, 2018) (finding no infringement for two out of three
defendants at trial, and only “innocent” infringement
for a third, resulting in minimal statutory damages).
This petition offers an opportunity to halt the harmful,
illogical, and unlawful practices endorsed by the Ninth
Circuit before they spread.
The unreasonableness of the Ninth Circuit’s holding
is illuminated by a circuit split on a related topic:
whether proof of striking similarity is sufficient to
abrogate the requirement of proving access at
summary judgment or trial. The circuit courts are split
on the issue of proof, with the majority rule generally
requiring some standard of access to be satisfied in
order to prove copying – even if striking similarity is
established. Bouchat v. Baltimore Ravens, Inc., 241
F.3d 350, 356 (4th Cir. 2001); Takeall v. Pepsico, Inc.,
14 F.3d 596 at *4 (4th Cir. 1993); Gaste v. Kaiserman,

6
863 F.2d 1061, 1068 (2d Cir. 1988); Selle v. Gibb, 741
F.2d 896, 901-02 (7th Cir. 1984); Stewart v. Wachowski,
574 F. Supp. 2d 1074, 1100 (C.D. Cal. 2005); Takeall v.
Pepsico, Inc., 809 F. Supp. 19, 22 (D.Md. 1992).
This is the very essence of absurdity: if the circuit
courts cannot agree whether access is required at
summary judgment or trial – and the majority still
maintain the prerequisite – certainly it cannot be
reasonable to ignore the access requirement at the
pleading stage. Certiorari should be granted to stem
the Ninth Circuit’s ill-advised expansion of the
copyright pleading standard and to ensure that Iqbal
and Twombly are not violated.
The instant case also presents an excellent vehicle
to provide clarity on two additional issues, each of
which concerns the legal standard for copyright
ownership and the weight that such evidence should be
afforded at the pleading stage.
The first issue concerns the amount of information
deemed sufficient to place a defendant on notice as to
what work is at issue and whether a plaintiff has
secured a valid copyright registration. In light of this
Court’s recent unanimous decision in Fourth Estate
Pub. Benefit Corp. v. Wall-Street.com, LLC (“Fourth
Estate”), 139 S. Ct. 881 (2019), which requires that a
plaintiff possess a registration from the Copyright
Office prior to instituting an infringement suit, it
follows that plaintiffs should be required to provide
copies of their actual registration certificates – and
copies of the deposit materials presumptively protected
by the registration – as part of their complaint at the

7
time of instituting suit. We urge this Court to rule that
pleading of such materials is now mandatory.
The second copyright ownership issue concerns the
weight, if any, that a defendant’s copyrights should be
given at the pleading stage, including whether such
registrations are considered prima facie evidence of
validity, ownership, and independent creation
sufficient to bar a pleading of striking similarity. In
the instant case, H&M presented the district court with
United States and Chinese copyright registrations for
its work. This case affords this Court an opportunity
to clarify the role of foreign and domestic copyrights in
defense of copyright infringement claims, and whether
such copyrights may be properly considered by courts
at the pleading stage to bar a pleading of striking
similarity.
B. Procedural History and Prior Court
Orders
H&M is a leading United States retailer of fashionforward clothing for men, women, and children. Dkt.
1, p. 4.1 H&M is not a designer or manufacturer – the
products it sells are designed and manufactured in
countries around the world by other companies. Id.
Malibu filed the Complaint on February 10, 2014. Id.
In doing so, Malibu was required to plead facts
establishing: (1) Malibu’s ownership of a valid
copyright for its work (the “Flower Pattern”);
1

Citations to “Dkt.” numbers within this petition refer to
documents located on the district court docket, Malibu Textiles,
Inc. v. H&M Hennes & Mauritz LP, Central District of California
Case No. 2:14-cv-01018-R-E.

8
(2) H&M’s access to the Flower Pattern; and
(3) substantial similarity between the protectable
elements of the Flower Pattern and H&M’s work (the
“H&M V-Neck”). Berkic, 761 F.2d at 1291.
Malibu’s initial Complaint failed to meet this
standard. First, Malibu did not allege any facts or
provide any evidence to support that it owns a
copyright registration for the Flower Pattern. Rather,
Malibu alleged the legal conclusion that it is “the
exclusive owner of [the Flower Pattern] . . . and has
registered [the Flower Pattern] with the United States
Copyright Office.” Dkt. 1, p. 3. Malibu also attached a
picture of a fabric swatch that it purported to be the
“1967” pattern. Id., p. 4. No documented copyright
registration, deposit materials, or copyright
registration number was provided to H&M or the
district court. Id.
Second, Malibu’s Complaint did not allege any facts
or provide any evidence to suggest that H&M had
access to the Flower Pattern. Instead, Malibu pled
generic, boilerplate, and speculative allegations,
namely that the particular defendant, here H&M,
could have accessed the Flower Pattern by, inter alia,
viewing Malibu’s design library, interacting with
unnamed third-party vendors, or by viewing garments
manufactured by Malibu. Id., p. 5-6. With respect to
alleging widespread dissemination, Malibu merely
pleaded the unsupported and conclusory statement
that “[Malibu] sampled and sold fabric bearing the
[Flower Pattern] to numerous parties in the apparel
industry.” Id., p. 4.

9
On March 25, 2014, H&M filed its initial motion to
dismiss. Dkt. 8, p. 1. On June 3, 2014, the district
court granted H&M’s motion with prejudice, holding,
among other findings, that Malibu failed to allege
ownership of a valid copyright for the Flower Pattern,
that Malibu failed to allege facts supporting H&M’s
access, and that Malibu “failed to allege any
protectable elements that are substantially similar
between [the Flower Pattern] and [the H&M V-Neck],”
as “[Malibu’s] allegation that the works are similar is
a mere legal conclusion.” App. 20.
On June 16, 2014, rather than file a motion for
leave to file an amended complaint or directly appeal
the district court’s order, Malibu filed a Motion for
Reconsideration. On July 22, 2014, the district court
denied Malibu’s Motion for Reconsideration,
elaborating at length on Malibu’s failure to plead facts
regarding either striking or substantial similarity:
The [Works] are not actually the same despite
Malibu’s claim that H&M’s is an exact replica.
Malibu’s pattern is two-tone, H&M’s pattern has
one tone. The stigmas of the clockvine flower are
shaped differently. The vines themselves are
shaped differently, and the spacing between the
various elements are of different proportions.
Malibu’s pattern has vine segments that are not
in H&M’s pattern. They are clearly not exact or
identical as Malibu’s bare legal assertion claims.
Malibu failed to plead substantial similarity,
because once the uncopyrightable depictions of

10
nature and public domain elements of its work
are removed, there is little left.
App. 31.
The court also held that “Malibu plead[ed] no facts
that the work was widely disseminated,” and that “if
Malibu had any facts to support [widespread
dissemination], they would have been included in the
complaint.” App. 30. The district court further
declared that the Flower Pattern and the H&M V-Neck
were not actionably similar as a matter of law, and
made factual findings that the Flower Pattern is
comprised of public domain elements, including artistic
depictions of naturally-occurring flowers and scènes à
faire lace elements. App. 30-31.
On July 24, 2014, Malibu filed a notice of appeal to
the Ninth Circuit regarding the district court’s order
granting H&M’s motion to dismiss and the denial of
Malibu’s Motion for Reconsideration. Dkt. 32, p. 1. On
September 13, 2016, the Ninth Circuit affirmed the
grant of H&M’s initial motion to dismiss. App. 33. In
doing so, the Ninth Circuit held that Malibu needed to
“allege facts plausibly showing that H&M copied the
protected elements in Malibu’s work.” App. 35. The
Ninth Circuit also helpfully offered that Malibu could
“satisfy this element by showing either that the two
works in question are strikingly similar, or by showing
that they are substantially similar and that the
defendant had access to the plaintiff’s work,” but held
that “Malibu’s complaint did not adequately allege
copying of a protected work under any of these
theories.” Id. The Ninth Circuit further found that
Malibu’s access pleading was insufficient, instructing

11
that “Malibu could have pleaded facts showing a chain
of events that linked the pattern with H&M, or
provided sales figures accompanied by dates and
geographic distribution information plausibly showing
access via widespread dissemination.” Id. Despite
these failures, the Ninth Circuit instructed the district
court to provide leave to amend. App. 36.
On February 6, 2017, Malibu filed its First
Amended Complaint (“FAC”). Dkt. 44, p. 1. Despite
this second chance to plead – and over three years to
develop its allegations – the FAC contains only
minimal differences from the Complaint.
With respect to ownership of a valid copyright,
Malibu managed to directly controvert the factual
representations it made in its Complaint. In the FAC,
Malibu represents that the Flower Pattern is
“collectively” created out of both “Design 1967” and
another work, “Design 1717,” and that “1967” and
“1717” are “essentially the same artwork with slight
variations due to the production of the pattern on a 48gauge machine (for Design 1717) versus a 36-gauge
machine (for Design 1967).” Id., p. 3. Malibu has
never explained this glaring inconsistency between its
pleadings. With respect to substantial similarity,
Malibu’s FAC failed to identify or distinguish what, if
any, protectable similarities exist between the Flower
Pattern and the H&M V-Neck. Instead, in an attempt
to give the perception that it was complying with the
Ninth Circuit’s directions, Malibu added to the FAC a
list of the Flower Pattern’s unprotectable elements
(including, inter alia, a natural, unprotectable
depiction of the Bengal Clockvine, “small petaled flower

12
elements,” and “leaf-like elements”), along with the
conclusory statement that “[t]he design appearing on
the [H&M V-Neck] is a copy of the [Flower Pattern].”
Id., p. 3-5. Finally, Malibu presented nearly identical
access allegations to those found in the Complaint. Id.,
p. 5-6. The FAC omits the Complaint’s insufficiently
pled theory of widespread dissemination; otherwise,
the access pleadings are exactly the same. Id., p. 5-6;
Dkt. 1, p. 5-6.
On March 15, 2017, H&M moved to dismiss the
FAC. Dkt. 51, p. 1. On June 29, 2017, the district
court granted H&M’s second Motion to Dismiss with
prejudice, building upon the holdings of its prior orders
granting H&M’s initial motion to dismiss and denying
Malibu’s motion for reconsideration. App. 22. In doing
so, the district court held that Malibu had “failed to
plead access and striking similarity,” and recognized
that “[t]he FAC and complaint contain virtually
identical allegations regarding access,” constituting
“nothing more than a speculative list of guesses as to
how [H&M] may have accessed the subject work.” App.
24-25. With respect to similarity, the district court
again found “objective differences” between the Flower
Pattern and the H&M V-Neck, holding that the works
“do not contain strikingly similar protectable
elements.” App. 26. On July 12, 2017, Malibu
appealed the district court’s order to the Ninth Circuit.
Dkt. 62, p. 1.
On April 24, 2019, the Ninth Circuit held that
Malibu had sufficiently alleged copyright ownership in
the H&M case, despite Malibu’s failure to provide any
registration or deposit materials, and despite the

13
material changes to its story as to how and if the
Flower Pattern was registered. App. 6-8. Instead, the
Ninth Circuit accepted Malibu’s bald pleading of two
different copyright numbers, along with its assurance
that the two copyrights covered “essentially the same
artwork” with only “slight variations.” App. 7.
In direct contravention of its 2016 order, the Ninth
Circuit next held that Malibu had demonstrated
striking similarity between the Flower Pattern and the
H&M V-Neck, despite having found no such similarity
with respect to the exact same patterns in 2016. App.
12. In holding that striking similarity had been
established, the Ninth Circuit relied on Malibu’s
generic, non-protectable, and scènes à faire “floral, leaf,
boteh, and dot elements,” as well as Malibu’s
conclusory statements that the works “are ‘identically
arranged’ and that the elements ‘are arranged exactly
the same in relation to each other.’” App. 11. The
Ninth Circuit also relied on Malibu’s non-deposit image
of the Flower Pattern and an unverified photograph of
the alleged H&M V-Neck, stating that the heavily
edited “side-by-side pictures that make the similarities
apparent” were Malibu’s “most important[]” evidence of
similarity – despite “some minor differences” between
the parties’ works. App. 11.
Finally, in dicta, the Ninth Circuit addressed
Malibu’s pleading of access, as access is required to
plead substantial similarity.2 Berkic, 761 F.2d at 1291.
2

Even if, arguendo, this Court elects not to grant certiorari in this
case, it should issue an order directing the Ninth Circuit to
depublish the portion of its order discussing access and substantial
similarity.

14
In discussing access, the Ninth Circuit relied on
allegations contained in an unfiled, proposed Second
Amended Complaint (“SAC”) offered to the Court by
Malibu, rather than the actual allegations pled in the
FAC:
Here, the proposed amended Complaints allege
several ways Defendants had access to the
[Flower Pattern]. Malibu first alleges that
Defendants do business in California and that
they had access to the [Flower Pattern] through
Malibu’s California showrooms. Malibu next
states that, since 1998, it has produced
“approximately 1 million yards of lace bearing
the [Flower Pattern],” which have been
manufactured in “over twenty mills, including
numerous mills in China.” Those mills’ libraries
of patterns, containing the [Flower Pattern],
have since been acquired by other mills, who in
turn “have offered those patterns to customers
without regard to whether those patterns were
protected by copyright law.” Malibu further
alleges that its customers have “sold garments
and other products featuring the [Flower
Pattern] ... in the same markets (domestically
and internationally) as Defendants.” Finally,
Malibu specifies several clothing retailers
“operating in the same market as Defendants”
that collectively “have sold hundreds of
thousands of garments featuring reproductions
of the [Flower Pattern].”
App. 13-14.

15
Of the above access allegations, only one – Malibu’s
allegation that H&M does business in California –
appears in Malibu’s FAC. Dkt. 44, p. 2. All of the
other theories identified by the Ninth Circuit remain
unpled, and Malibu has since notified the Court that it
intends to rely on the FAC, rather than filing the SAC
that it proposed to file prior to the Ninth Circuit’s 2019
order. Dkt. 46, p. 1-2; Dkt. 79, p. 1. Malibu’s current
FAC is actually worse on access than the Complaint
rejected by the Ninth Circuit in 2016; the FAC does not
offer any factual allegations as to widespread
dissemination or other theories – only the same generic
assumptions and guesswork offered in its initial
Complaint. Jorgensen v. Epic/Sony Records, 351 F.3d
46, 51 (2d Cir. 2003) (“Access cannot be based on mere
speculation or conjecture”); see also McKain v. Estate of
Rhymer, 166 F. Supp. 3d 197, 201 (D. Conn. 2015)
(rejecting “allegations [that] amount to nothing more
than speculation and conjecture”). There is no basis for
the Ninth Circuit to declare these allegations sufficient
now after dismissing them in 2016, nor for it to rely on
unpled pleadings.
On the basis of the above factual errors and
contraventions of its own 2016 order, the Ninth Circuit
reversed the district court’s dismissal of Malibu’s FAC
and remanded the case to the district court for further
proceedings. This petition follows.

16
REASONS FOR GRANTING THE PETITION
The Court should grant the writ to decide the three
important questions presented by this case, as doing so
will provide much needed clarity, uniformity, and
reliability to copyright infringement pleading in this
nation’s courts. Without resolution of these questions,
inconsistent and insufficient pleading standards will be
further perpetuated, and copyright defendants across
the country will be made to unfairly bear the burden of
litigating poorly investigated and undeserving claims.
I.

A PLEADING OF STRIKING SIMILARITY
SHOULD NOT BE PERMITTED ABSENT A
PLEADING OF ACCESS

At the pleading stage, no circuit court has accepted
a pleading of striking similarity, absent a pleading of
access – until now. Instead, the doctrine has only been
accepted at summary judgment or trial, when “proof”
is required. Proof of striking similarity first emerged
as an alternative to proving access in Wilkie v. Santly
Bros., 91 F.2d 978, 979 (2d Cir. 1937), on reargument
sub nom. Wilkie v. Santly Bros., 94 F.2d 1023 (2d Cir.
1938): “Internal proof of access may rest in an identity
of words or in the parallel character of incidents or in
a striking similarity which passes the bounds of mere
accident.” In 1946, the Second Circuit sharpened the
doctrine, announcing that striking similarity could be
utilized to demonstrate access where evidence of access
was unresolved; not where evidence of access had been
foreclosed: “The evidence by no means compels the
conclusion that there was access; on the other hand, it
does not compel the conclusion that there was not.
Consequently, copying might still be proved by showing

17
striking similarity.” Heim v. Universal Pictures Co.,
154 F.2d 480, 487 (2d Cir. 1946). Determination of
striking similarity has historically been reserved for
the trier of fact, with some courts requiring expert
testimony to apply the doctrine. “[W]hen a plaintiff
seeks to dispense with direct proof of access and
attempts to establish that two works are “strikingly
similar,” [expert] testimony is required.” Testa v.
Janssen, 492 F. Supp. 198, 203 (W.D. Pa. 1980); Baxter
v. MCA, Inc., 812 F.2d 421, 424 (9th Cir. 1987) (holding
that expert testimony was not required as “access was
conceded and is thus not in issue,” but admitting that
“expert testimony and analytic dissection offered as to
‘striking similarity’ would certainly merit submission
to a jury as to the substantial similarity of general
ideas as between the two works”).
Until the Ninth Circuit’s 2019 holding in this case,
all published circuit court cases dealing with the
striking similarity doctrine invoke the same language
– the requirement to “prove” striking similarity, not
plead it; this is because application of the striking
similarity doctrine has been widely recognized only at
summary judgment or trial – not at the pleading stage.
See, e.g., Selle, 741 F.2d at 905 (“[T]he burden of
proving ‘striking similarity,’ which, by definition,
includes taking steps to minimize the possibility of
common source, is on the plaintiff”); Bouchat, 241 F.3d
at 356 (“[T]he striking similarity of the works was a
proper factor for the jury to consider, in conjunction
with all other evidence, to determine whether the
plaintiff had proven copying by circumstantial
evidence”). Indeed, the very case cited by the Ninth
Circuit to justify Malibu’s pleading is an appeal

18
following a jury’s trial verdict, Three Boys Music Corp.
v. Bolton, 212 F.3d 477, 485 (9th Cir. 2000)
(“Furthermore, in the absence of any proof of access, a
copyright plaintiff can still make out a case of
infringement by showing that the songs were
“strikingly similar”).
Examples of district courts accepting a pleading of
striking similarity without a pleading of access are few
and far between. Other than the instant case, H&M
has found only two examples of such a complaint
surviving a 12(b)(6) motion: Batiste and Thunder
Studios.3 In Batiste, a jazz musician, Paul Batiste,
accused an internationally famous hip-hop duo of
copyright infringement with respect to eleven songs.
2018 WL 2268173 at *1. In doing so, Mr. Batiste
accused the defendants of “sampling,” a process where
small segments of music are directly copied and
incorporated into a larger, secondary musical work. Id.
Mr. Batiste’s pleading did not contain any
allegations of access; in the words of the district court,
“[T]he complaint does not contain a single reference as
3

H&M has been able to locate one additional case, All About
Network, LLC v. York (“York”), No. 612CV1374ORL37KRS, 2013
WL 12387590, at *1 (M.D. Fla. June 14, 2013), report and
recommendation adopted, No. 612CV1374ORL37KRS, 2013 WL
12387585 (M.D. Fla. July 8, 2013), in which a pleading of striking
similarity was found sufficient to render judgment in favor of the
plaintiff at the pleading stage. In York, however, judgment was
awarded to the plaintiff through default judgment, rather than
adjudication on the merits. Moreover, the plaintiff in in York
provided fact-based, non-speculative allegations that created a
presumption of access by the defendant in addition to its striking
similarity pleading.

19
to how the defendants accessed his compositions . . .[it]
does vaguely contend that access should be “inferred”
because it is “presumed” that the defendants
committed copyright infringement.” Id. at 4. Instead,
Mr. Batiste accused the defendants of a striking
similarity violation – specifically, “willfully cop[ying]
several protectable elements of his copyrights,”
including the “introduction,” “beat,” “drums,” “hook”
and “bass line” of several works. Id. This was enough
to satisfy the district court: “Taken as true, Batiste
pleads that the defendants unlawfully copied large
portions of his compositions. If proven, Batiste would
meet his burden to show striking similarity.” Id. In
filing their motion to dismiss, the defendants asked the
district court “to engage in a side-by-side analysis,
comparing the musical elements of Batiste’s works to
the defendants’ songs to determine whether Batiste has
stated a claim.” Id. The district court declined, stating
it would not “act[] as a fact finder.” Id. Instead, it held
that Mr. Batiste had “me[t] his burden to allege
copyright infringement,” and denied the defendants’
motion. Id.
Nearly a year passed.
In the interim, the
defendants accrued substantial expense with respect to
discovery, including depositions, discovery motion
practice, preparation of expert reports, and the filing of
a motion for summary judgment. Batiste, E.D.
Louisiana, Case 2:17-cv-04435-MLCF-KWR, Dkt. No.
145-1. The district court ultimately granted the
defendants’ motion for summary judgment in full,
holding that “Mr. Batiste ha[d] presented no evidence
that is ‘significantly probative of a reasonable
opportunity for access,’ and that he had “failed to

20
demonstrate ‘striking similarity’ or any instances of
sampling with respect to the twelve song pairings
identified in his complaint.” Batiste, 2019 WL 1790454,
at *9. The defendants were vindicated – they had not
stolen Mr. Batiste’s work. But in order to prove this,
they were forced to incur $145,594.50 in attorneys’ fees
and endure months of meaningless, wasteful litigation.
Batiste, E.D. Louisiana, Case 2:17-cv-04435-MLCFKWR, Dkt. No. 145-1.
In Thunder Studios, a media production studio
accused three individuals of stealing a series of
photographs and posting them on a website without
permission. Id. at *1. The production studio was
meticulous in pleading copyright ownership, attaching
official copies of the photographs’ copyright
registrations to its pleading. Id. With respect to
copying, the production studio alleged that the
defendants “directly copied photographs and posted
them on the[ir] website, as well as on various social
media sites.” Id. at *3. The district held that this was
sufficient to plead striking similarity and allowed the
case to proceed to trial. Id. At trial, the jury held in
favor of two out of the three defendants, finding them
innocent of copyright infringement. Ninth Circuit Case
No. 19-55413, Dkt. No. 4. The third was found liable
only for innocent infringement, and assessed minimum
statutory damages of $2,600. Id. An appeal is
currently pending. Id.
Batiste and Thunder Studios each tell the same tale
– for three of the four defendants involved, the district
courts’ acceptance of the plaintiffs’ conclusory
pleadings lead to a substantial and unnecessary waste

21
of resources for the parties and courts alike. For the
remaining defendant in Thunder Studios, any
copyright liability was vastly outweighed by the cost
and burden of litigation.
These are unjust,
unwarranted, and preventable outcomes, and the
pleading practices that lead to such outcomes should be
halted by this Court.
Malibu’s current striking similarity pleading is
decidedly conclusory, containing only two heavily
edited images – purported without further evidence to
be the Flower Pattern and the H&M V-Neck, along
with repeated statements as to how the two images’
elements are “identical,” identically arranged,” “exactly
the same,” “strikingly similar,” “a near exact facsimile,”
and “mirror each other exactly.” Dkt. 44, p. 3-5.
Notably, while the FAC does mention specific elements
of the works, they do not differentiate between
protectable and unprotectable elements, as directly
ordered by the Ninth Circuit’s 2016 order. App. 36 (“To
allege striking or substantial similarity, Malibu could
have described the pattern’s protectable elements—
such as the selection, coordination, and arrangement of
flowers, leaves, and branches—and identified those
same elements in the defendants’ patterns, perhaps
with reference to photos showing a side-by-side
comparison of the works”). Instead, Malibu has
wrongfully chosen to claim that the entirety of its work
should be afforded copyright protection, and the
conclusory language of its pleading directly
contravenes Iqbal, Twombly, and the guidance of the
Ninth Circuit’s 2016 panel:

22
“Well, tell me if I’m wrong on this: Wouldn’t you
say though that in this context, just using the
word copy or copied, isn’t that just equivalent to
a legal conclusion, and you’ve got to give us, give
the Court, the sort of factual underpinning for
that so that we can conclude that it’s plausible
that you’re going to be right when it comes time
to proving this up?”
Hon. Paul J. Watford, Sept. 1, 2016, Malibu Textiles,
Inc. v. H&M Hennes & Mauritz LP,
https://www.youtube.com/watch?v=FavTDmhOAPM, at
20:26-20:45.
The facts and procedural history of this case all lead
to the same conclusion: there is a clear and present
danger that an outcome similar to Batiste and Thunder
Studios is likely to occur in the instant case. On three
separate occasions, the district court held that Malibu
had failed to satisfy the standard of substantial
similarity, much less striking similarity. In granting
H&M’s initial motion to dismiss in 2014, the district
court held that Malibu “failed to allege any protectable
elements that are substantially similar between [the
Flower Pattern] and [the H&M V-Neck],” as “[Malibu’s]
allegation that the works are similar is a mere legal
conclusion.” App. 20. In denying Malibu’s 2014 motion
for reconsideration, the district court made specific
factual findings as to the works’ differences:
The [Works] are not actually the same despite
Malibu’s claim that H&M’s is an exact replica.
Malibu’s pattern is two-tone, H&M’s pattern has
one tone. The stigmas of the clockvine flower are
shaped differently. The vines themselves are

23
shaped differently, and the spacing between the
various elements are of different proportions.
Malibu’s pattern has vine segments that are not
in H&M’s pattern. They are clearly not exact or
identical as Malibu’s bare legal assertion claims.
Malibu failed to plead substantial similarity,
because once the uncopyrightable depictions of
nature and public domain elements of its work
are removed, there is little left.
App. 31.
And in 2017, when granting H&M’s second motion
to dismiss, the district court went even further,
dedicating a lengthy portion of its order to the many
differences between the Flower Pattern and the H&M
V-Neck:
Here, the protectable elements of the Subject
Work include the arrangement, selection,
coordination of the Bengal Clockvine flower
featured in the lace design. However, the “floral
pattern depicting bouquets and branches is not
protectable [sic]” nor is the “combination of open
flowers and closed buds in a single bouquet or
the green color of stems and leaves.” [Citation
omitted]. The Subject Work contains both
protectable and non-protectable elements. The
majority of the similarity between the Subject
Work and the allegedly infringing work come
from non-protectable elements. For example,
Plaintiff alleges that the five-petaled flower in
both works contain the same leaf elements with
the same patterns and indentations in the
petals. The flower and its petals are non-

24
protectable because they are merely the natural
appearance of a Bengal Clockvine flower. The
Bengal Clockvine flower contains five-petal leaf
elements with indentations at the tips of each
petal in its natural form. The non-protectable
five-petal flowers make up the majority of the
similarities between the two works. Plaintiff
does point to additional similarities, but like the
Bengal Clockvine, most are non-protectable.
Furthermore, there are objective differences
between the two works. For example, the two
pictures examined in Paragraph 12 of the FAC
reveal marked differences. The Subject Work
contains thicker, more sloped boteh shapes to
the left of the image whereas the Defendant’s
design contain thin, more vertical boteh shapes.
Additionally, the lace netting is much tighter in
the Subject Work than in the Defendant’s
design. Accordingly, the Court finds that the two
works do not contain strikingly similar
protectable elements. As such, the FAC has
failed to allege copying.
App. 25-26.
The district court’s findings are not an anomaly.
Despite being provided plenty of opportunity to
countermand the district court’s factual findings in
2016, the Ninth Circuit remained silent on the issue of
similarity in affirming the dismissal of Malibu’s initial
pleading. The Ninth Circuit’s current order is a jarring
shift from its prior guidance; despite focusing Malibu
on the issues of access and substantial similarity in
2016, the Ninth Circuit is now all too eager to anoint

25
the Flower Pattern and the H&M V-Neck as identical.
In any event, the district court’s factual findings and
the Ninth Circuit’s 2016 silence demonstrate that, at
minimum, reasonable minds could find that neither
striking or substantial similarity exists here – raising
the frightening and likely prospect of H&M being
unwillingly and unfairly dragged through the discovery
process (and the substantial costs associated with it),
only to be vindicated at summary judgment or trial. A
moral victory and an empty pocket will be a poor
outcome for H&M here, as they would be for any
defendant.
The Ninth Circuit’s elimination of the access
pleading requirement is particularly unreasonable in
light of the fact that the circuit courts still cannot agree
on a related issue: whether proof of striking similarity
eliminates the requirement to prove access at summary
judgment or trial. The circuits are not only split on
this issue; as discussed below, the majority rule still
requires at least some standard of access to be
satisfied, no matter how robust a plaintiff’s showing of
striking similarity. In the Fifth Circuit and Eleventh
Circuit, proof of striking similarity may overcome a
lack of evidence demonstrating access – or even an
outright denial by a defendant. See, e.g., Ferguson v.
National Broadcasting Co., 584 F.2d 111, 113 (5th
Cir.1978) (“If a party is able to show a ‘striking
similarity’ between the protected work and the
infringing work, the party need not prove access to
prevail”); see also Arthur Rutenberg Homes, Inc. v.
Berger, 910 F. Supp. 603, 608 (M.D. Fla. 1995)
(“[A]ccess can be shown indirectly from striking

26
similarity despite the existence of uncontradicted
sworn denial of access by the other party”).
In the Second and Fourth Circuits, at least some
standard of access is required in order to demonstrate
copying – even if striking similarity is established.
Bouchat, 241 F.3d at 356 (“Unlike the Fifth Circuit,
this court does not favor the wholesale abandonment of
the access requirement in the face of a striking
similarity”); Gaste, 863 F.2d at 1068 (“Though striking
similarity alone can raise an inference of copying, that
inference must be reasonable in light of all the
evidence”); Takeall, 809 F. Supp. at 22 (striking
similarity, alone, is insufficient to support a finding of
access, as a plaintiff must present additional
“independent evidence” to establish a reasonable
probability of access, not mere “speculation and
conjecture”); Takeall, 14 F.3d at *4 (“In effect, [the
plaintiff] invites this Court to adopt a per se rule
regarding the elimination of the need for proof of access
in cases involving “striking similarity.” Even assuming,
as did the district court, that this is a case of striking
similarity, in our view, such a per se rule is inadvisable
and unsupported by law”).
And finally, in the Seventh Circuit and Ninth
Circuits, an adaptable, case-by-case standard is
applied, with at least a minimum requirement of
“reasonableness” regarding the issue of access:
As a threshold matter, therefore, it would
appear that there must be at least some other
evidence which would establish a reasonable
possibility that the complaining work was
available to the alleged infringer . . . Thus,

27
although it has frequently been written that
striking similarity alone can establish access,
the decided cases suggest that this circumstance
would be most unusual. The plaintiff must
always present sufficient evidence to support a
reasonable possibility of access because the jury
cannot draw an inference of access based upon
speculation and conjecture alone . . . the plaintiff
must still meet some minimum threshold of
proof which demonstrates that the inference of
access is reasonable.
Selle, 741 F.2d at 901-02; Stewart, 574 F. Supp. 2d at
1100 (“[T]he Ninth Circuit follows the majority rule
that striking similarity will support an inference of
access only when such an inference is reasonable in
light of the totality of the evidence in the record”).
Where the majority rule still requires evidence of
access at summary judgment or trial, the requirement
to plead access must be maintained; to do so otherwise,
as the Ninth Circuit has done here, violates the very
standard of proof that must be met.
Finally, as discussed below in Section 3, the
existence of domestic and foreign copyrights for the
H&M V-Neck’s pattern are prima facie evidence of the
copyrights’ validity, the ownership of the pattern, and
the pattern’s independent creation. And, unlike
Malibu, H&M has actually provided its proof of
registration and deposit materials to the district court.
If, arguendo, Malibu’s poorly pled copyright
registration allegations are considered plausible
enough to plead a copyright claim, then certainly
H&M’s robust pleading of its own copyright ownership

28
should be sufficient to bar Malibu from relying on
striking similarity as a means to overcome the pleading
bar. Seals-McClellan v. Dreamworks, Inc., 120 Fed.
Appx. 3, 4 (9th Cir. 2004); Gaste, 863 F.2d at 1068;
Testa, 492 F. Supp. at 203; Stratchborneo v. Arc Music
Corp., 357 F. Supp. 1393, 1403 (S.D. N.Y 1973). At
minimum, in this circumstance, Malibu should be
required to meet the traditional requirement of
pleading access. It has not.
The Ninth Circuit’s decision to find Malibu’s
pleading of striking similarity without access sufficient
presents a particularly keen and infectious danger with
respect to copycat claims; the sheer volume of copyright
litigation in the Ninth Circuit – and the Circuit’s
reputation as a leader in intellectual property matters
– will undoubtedly open the floodgates to a plethora of
poorly pled pleadings, both in the Circuit and beyond.
As demonstrated by Batiste and Thunder Studios, if
the Ninth Circuit’s new pleading rule is allowed to
stand, it is increasing likely that copyright plaintiffs in
the Ninth Circuit will entirely abandon any prelitigation examination or investigation with respect to
access, much less attempt to provide a pleading of facts
sufficient to make access plausible. Striking similarity
has always been an alternative means of proving
access, absent proof of the defendant’s independent
creation. Now, in the Ninth Circuit, a conclusory
pleading of striking similarity is all that is needed to
ensure a case will survive into discovery; the
requirement to plead access no longer exists.
Certiorari should be granted to halt this new, radical,
and reckless practice before it spreads.

29
II.

INFRINGEMENT
CLAIMS
SHOULD
REQUIRE FILING OF REGISTRATION
CERTIFICATES AND DEPOSIT MATERIALS
AT TIME OF PLEADING

A certificate of registration is prima facie evidence
of the validity of the copyright. 17 U.S.C. § 410(c) “(In
any judicial proceedings the certificate of a registration
made before or within five years after first publication
of the work shall constitute prima facie evidence of the
validity of the copyright and of the facts stated in the
certificate. The evidentiary weight to be accorded the
certificate of a registration made thereafter shall be
within the discretion of the court”); Rogers v. Koons,
960 F.2d 301, 306 (2d Cir.1992) (“The Copyright Act
makes a certificate of registration from the U.S.
Register of Copyrights prima facie evidence of the valid
ownership of a copyright”); Original Appalachian
Artworks, Inc. v. Toy Loft, Inc., 684 F.2d 821, 826 (11th
Cir. 1982).
Congress’ decision to focus on the
registration certificate as evidence of validity – rather
than the registration number, or any other ancillary
evidence of registration – is no mistake, as witnessed
by this Court’s recent jurisprudence. In March 2019, in
a watershed case, this Court unanimously held that a
plaintiff may commence an infringement suit only after
the Copyright Office has officially registered a
copyright, and not prior. Fourth Estate, 139 S. Ct. at
886. Fourth Estate ended the practice in many courts
(including the Ninth Circuit) wherein copyright
plaintiffs routinely filed suit while the registration
application for their work remained pending and
unconfirmed by the Copyright Office. Id. Central to 17
U.S.C. § 410(c) and Fourth Estate is the truth that

30
while “the vast majority of applications are granted,”
not all works are protectable, and that a certificate of
registration is the only proof of copyright registration
acceptable to pursue a claim of infringement. Fourth
Estate, 139 S. Ct. at 890. Indeed, in Fourth Estate, the
Copyright Office ultimately refused to register the
plaintiff’s work. Id. at 887.
From 17 U.S.C. § 410(c) and Fourth Estate, it
follows that if copyright infringement litigation is to
occur, the pleading of an actual registration certificate
– and what is protected by that registration – must be
provided to the parties and to the court at the time the
suit commences. Often, including the instant case,
plaintiffs plead only a copyright number or other
meager information without any notice as to what work
that number allegedly covers. See, e.g., Election Sys. &
Software, LLC v. RBM Consulting, LLC, No. 8:11-CV438, 2015 WL 13484484, at *5 (D. Neb. Feb. 4, 2015)
(finding that “[the plaintiff] has not produced a
certificate of registration—the typical way that
registration is demonstrated,” holding the plaintiff’s
pleading of “applicable copyright numbers” to be
insufficient evidence of possessing a copyright
registration, and instructing that, “the Court is
somewhat perplexed as to how, if [the plaintiff] had
actually registered a copyright, it could not, after 3
years into this lawsuit, have obtained a certificate of
registration. Lacking any proof of registration,
[plaintiff’s] copyright claim must be dismissed”).
In the instant case, Malibu’s FAC contains a
byzantine, paragraph long statement involving two
registration numbers, two separate works, and a

31
declaration that the work at issue is a “collectively”
created third work – one without a separate
registration number, as is required for copyright
protection. Dkt. 44, p. 3. Notably, this registration
information directly contravenes what was previously
provided in Malibu’s initial complaint, further casting
doubt on the validity of Malibu’s copyright ownership
and what, if anything, it protects. Dkt. 1, p. 3.
Moreover, Malibu has never provided any Copyright
Office certificate or deposit material in its pleadings;
instead, different grainy, changing images, obviously
cropped and edited, have been presented as the alleged
Flower Pattern.4 Id., p. 3-4; Dkt. 44, p. 4.
Malibu has never pled ownership of a copyright
registration certificate, nor has it ever informed H&M
and the Court as to the actual work its registration
allegedly protects. This is far short of the notice
required by 17 U.S.C. § 410(c) and Fourth Estate.
Malibu’s failure to plead copyright ownership fails the
first and most essential prong of any infringement
claim, as it leaves H&M and this Court in the dark as
to what Malibu’s Flower Pattern actually looks like and
whether it has been registered with the Copyright
Office. It further follows that the doctored evidence
Malibu has offered as to the Flower Pattern’s image is
unreliable, unverified, and insufficient to establish
striking similarity. A court cannot reasonably declare
that two works are identical if it does not know what
one of them looks like.
4

When H&M inquired after Malibu’s alleged deposit materials, it
was informed that the materials had been “misplaced/misfiled” by
the Copyright Office. Dkt. 51-1, pp. 4, 37. Thus, such evidence is
in Malibu’s sole possession, adding to the necessity that it be pled.

32
Nevertheless, the Ninth Circuit has held that
Malibu’s FAC satisfies the requirements of the
Copyright Act and Fourth Estate to demonstrate
ownership of a registration certificate, and to provide
notice as to what its work looks like. Such insufficient
copyright pleading is endemic in our courts and
requires correction.
To that end, we urge this Court to grant certiorari
and issue a clarifying rule requiring copyright plaintiffs
to attach official registration copies and Copyright
Office deposit materials to their complaints. This
simple step would ensure that actual registration of
works is verified and that defendants and courts alike
receive actual notice as to what works are at issue. In
the wake of Fourth Estate, such information is already
required to be in the possession of all copyright
plaintiffs, and its inclusion at the pleading stage
therefore presents no additional burden.
III.

DISTRICT
COURTS
SHOULD
BE
AUTHORIZED
TO
WEIGH
A
DEFENDANT’S COPYRIGHTS ON A
MOTION TO DISMISS

In moving to dismiss Malibu’s pleading, H&M
offered the district court comprehensive copyright
registration materials for the lace portion of the H&M
V-Neck – a formal copyright registration certificate
from the Copyright Office’s equivalent in China, as well
as evidence of registration issued by the Copyright
Office for the same work, recognizing its origins in
China. Dkt. 51-1, pp. 4, 49-55. Each of these
registrations was made within five years after first
publication of the lace on the H&M V-Neck, and the

33
registration certificates are thus prima facie evidence
of the validity of the copyright, the facts stated in the
certificates, and, as discussed below, the independent
creation of the lace portion of the H&M V-Neck. 17
U.S.C. § 410(c). H&M’s copyright ownership pleading
far surpasses that of Malibu, as H&M has actually
provided Malibu and the Court with a copyright
registration certificate in compliance with 17 U.S.C.
§ 410(c) and Fourth Estate. Dkt. 51-1, pp. 54-55.
Striking similarity cannot be established unless any
possibility of independent creation has been eliminated
as the origin of a defendant’s works: “To show striking
similarity between works, a plaintiff must produce
evidence that the accused work could not possibly have
been the result of independent creation.” SealsMcClellan, 120 Fed. Appx. at 4; Gaste, 863 F.2d at 1068
(“A plaintiff has not proved striking similarity
sufficient to sustain a finding of copying if the evidence
as a whole does not preclude any reasonable possibility
of independent creation”); Corwin v. Walt Disney Co.,
475 F.3d 1239, 1254 (11th Cir. 2007) (affirming a lack
of striking similarity in light of independent creation);
Testa, 492 F. Supp. at 203 (works are properly found
not to be strikingly similar when perceived similarities
are explained by independent creation); Stratchborneo,
357 F. Supp. at 1403 (striking similarity is only
demonstrated if defendant’s work is not a result of
independent creation).
The rule is clear: any possibility of independent
creation is an absolute bar to infringement based on
striking similarity.
Furthermore, evidence of
independent creation – as offered by H&M here – is an

34
absolute bar to infringement under any theory
(including substantial similarity), even if the works
appear to be identical. Yurman Design, Inc. v. PAJ,
Inc., 262 F.3d 101, 110 (2d Cir. 2001) citing Feist
Publ’ns, Inc. v. Rural Tel. Serv. Co., Inc., 499 U.S. 340,
345 (1991) (“Under the Copyright Act, one may market
a product identical to a copyrighted work so long as the
second comer designed his product independently . . .
[o]riginality does not signify novelty; a work may be
original even though it closely resembles other works
so long as the similarity is fortuitous, not the result of
copying”).
Thus, it follows that where a defendant has
presented verifiable, reliable, and valid evidence that
their work has been independently created – such as
through H&M’s presentation of copyright registration
certificates for the lace portion of the H&M V-Neck as
part of its 12(b)(6) motion – a plaintiff should be barred
from relying on a theory of striking similarity in order
to overcome the pleading bar. Johnson v. Gordon, 409
F.3d 12, 17 (1st Cir. 2005) (“A certificate of copyright
constitutes prima facie evidence of ownership and
originality of the work as a whole”); Kenbrooke Fabrics,
Inc. v. Holland Fabrics, Inc., 602 F. Supp. 151, 153
(S.D. N.Y. 1984) (“[The] plaintiff’s copyright certificate
is accepted as valid and thus constitutes prima facie
evidence of ownership”); Gordon v. DreamWorks
Animation SKG, Inc., 935 F. Supp. 2d 306, 314
(D. Mass. 2013) “[A] certificate of copyright serves as
prima facie that the registrant independently created
the work”). Here, the registrations for the lace of the
H&M V-Neck should bar Malibu’s reliance on a theory

35
of striking similarity to plead a claim of copyright
infringement.
Possession of a United States copyright registration
is, by itself, sufficient evidence of independent creation.
But the Chinese copyright registration certificate and
deposit material is owed equal deference. The United
States and China are signatories to the Berne
Convention for the Protection of Literary and Artistic
Works (“Berne Convention”). CYBERsitter, LLC v.
People’s Republic of China, No. CV 10-38-JST SHX,
2010 WL 4909958, at *4 (C.D. Cal. Nov. 18, 2010).
Under the Berne Convention, the United States and
China have agreed to protect each other’s copyrighted
works and afford them the same protections as
domestic works. Golan v. Holder, 565 U.S. 302, 132
S. Ct. 873, 874 (2012); Creative Tech., Ltd. v. Aztech
Sys. Pte., Ltd., 61 F.3d 696, 700 (9th Cir. 1995) (holding
that the Berne Convention mandates “a policy of
national treatment in which copyright holders are
afforded the same protection in foreign nations that
those nations provide their own authors”). The United
States and China are also member states of the
Agreement on Trade-Related Aspects of Intellectual
Property Rights (“TRIPS Agreement”), under which the
United States and China must give each other
treatment that is “no less favourable that that it
accords to its own nationals with regard to the
protection of intellectual property.” TRIPS Agreement,
Art. 3(1), available at https://www.wto.org/english/docs
_e/legal_e/27-trips.pdf. Thus, as the United States and
Chinese registrations for were filed within five years of
the work’s creation, the presumptions of validity,
ownership, and independent creation attach.

36
The Ninth Circuit’s holding that these copyrights
and their consideration “are better suited for summary
judgment” is imprudent. App. 8. A defendant’s
copyright registration should be treated the same as
that of a plaintiff. If a copyright defendant can present
proof of registration for its work, that registration must
be given equal weight in the pleading process, and
should at minimum prevent a plaintiff from relying on
striking similarity to survive the pleading bar –
particularly, where, as here, a plaintiff fails to plead
any facts supporting its affirmative case. We urge this
Court to grant certiorari for the purpose of formalizing
this bar, and to rule that consideration of a defendant’s
copyright registrations is appropriate in adjudicating
a Rule 12(b)(6) motion to dismiss and should be
granted equal weight to that of a plaintiff.
CONCLUSION
For the foregoing reasons, H&M respectfully
requests that the petition for a writ of certiorari be
granted.
Respectfully submitted,
STACI JENNIFER RIORDAN
Counsel of Record
NEAL J. GAUGER
NIXON PEABODY LLP
300 South Grand Avenue, 41st Floor
Los Angeles, California, 90071
(213) 629-6000
sriordan@nixonpeabody.com
Counsel for Petitioner

